No. 19-430
In the

Supreme Court of the United States
ATHENA DIAGNOSTICS, INC., OXFORD
UNIVERSITY INNOVATION LTD. and MAXPLANCK-GESELLSCHAFT ZUR FORDERUNG
DER WISSENSCHAFTEN E.V.,
Petitioners,
v.
MAYO COLLABORATIVE SERVICES, LLC,
DBA MAYO MEDICAL LABORATORIES
and MAYO CLINIC,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Federal Circuit
BRIEF OF AMICUS CURIAE THE CHARTERED
INSTITUTE OF PATENT ATTORNEYS IN
SUPPORT OF THE PETITIONERS
Michael Stanley Tomsa
Counsel of Record
McA ndrews, Held & Malloy, Ltd.
500 West Madison Street, Suite 3400
Chicago, Illinois 60661
(312) 775-8000
mtomsa@mcandrews-ip.com
Counsel for Amicus Curiae
292297

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

The Federal Circuit decision conf licts
w ith international treaties to which
the United States is a party, as well as
established international practice  . . . . . . . . . . . . 4

II. Clarification is needed as to the relationship
between the positive eligibility provisions
of 35 U. S.C. § 101 and the judicial
exceptions  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
III. The fact pattern in this case is consistent
with substantive eligibility, and provides an
opportunity for restoration of balance . . . . . . . . . 9
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

ii
TABLE OF CITED AUTHORITIES
Page
Cases
Ariosa Diagnostics, Inc. v. Sequenom, Inc.,
788 F.3d 1371 (Fed. Cir. 2015) . . . . . . . . . . . . . 3, 4, 6, 7
Ass’n for Molecular Pathology v.
Myriad Genetics, Inc.,
569 U.S. 576 (2013)  . . . . . . . . . . . . . . . . . . . . . . 13-14, 17
Athena Diagnostics, Inc. v.
Mayo Collaborative Servs., LLC,
915 F.3d 743 (Fed. Cir. 2019) . . . . . . . . . . . . 8, 9, 12, 13
Athena Diagnostics, Inc. v.
Mayo Collaborative Servs., LLC,
927 F.3d 1333 (Fed. Cir. 2019) . . . . . . . . . . . . . . . . . . 15
Bilski v. Kappos,
561 U.S. 593 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Diamond v. Chakrabarty,
447 U.S. 303 (1980)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Diamond v. Diehr,
450 U.S. 175 (1981) . . . . . . . . . . . . . . . . . . . . . . . 8, 16, 17
Hartranft v. Wiegmann,
121 U.S. 609 (1887) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Henry Schein, Inc. v. Archer & White Sales, Inc.,
586 U.S. ___, 139 S.Ct. 524 (2019) . . . . . . . . . . . . . . . 16

iii
Cited Authorities
Page
Mackay Radio & Telegraph Co. v.
Radio Corp. of America,
306 U.S. 86 (1939) . . . . . . . . . . . . . . . . . . . . . . . . . . .  8-9
Mayo Collaborative Servs. v.
Prometheus Labs., Inc.,
566 U.S. 66 (2012) . . . . . . . . . . . . . . . . . . . . . . . . passim
Murray v. Schooner Charming Betsy,
6 U.S. 64 (1804)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Sequenom, Inc. v. Ariosa Diagnostics, Inc.
[2019] FCA 1011 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Statutes
35 U.S.C. § 101  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Other Authorities
A g reement on T rade -Relat ed A spect s of
Intellectual Property Rights (TRIPS) . . . . . . . . 3, 5, 7
European Patent Convention (EPC) . . . . . . . . . . . . . . . . 4
Patent Cooperation Treaty (PCT) . . . . . . . . . . . . . . . . 4, 6
PCT International Search and Preliminary
Examination Guidelines . . . . . . . . . . . . . . . . . . . . . . . . 3

1
INTEREST OF AMICUS CURIAE
The Chartered Institute of Patent Attorneys (CIPA)
respectfully submits this amicus curiae brief in support
of Petitioners.1
CIPA is the professional and examining body for
patent attorneys in the United Kingdom (UK). The
Institute was founded in 1882 and was incorporated by
Royal Charter in 1891. It represents over 2,000 chartered
patent attorneys, whether they work in industry or in
private practice. Total membership is over 3,500 and
includes trainee patent attorneys and other professionals
with an interest in intellectual property.
Almost all chartered patent attorneys are members
of the Institute of Professional Representatives before
the European Patent Office. Further, most UK patent
attorneys have substantial experience with the U.S. patent
system as a result of filing and prosecuting applications
before the United States Patent and Trademark Office
(USPTO) with the assistance of local counsel, and many
have experience with U.S. patent litigation, again with
the assistance of local counsel.
1. Pursuant to Rule 37.2(a), all parties received timely
notice of the intent to file this brief, and consent was granted by
all parties.
Pursuant to Rule 37.6, no counsel for a party authored this
brief in whole or in part, and no such counsel or a party made
a monetary contribution intended to fund the preparation or
submission of the brief. No person other than the amicus curiae,
its members, or its counsel made any monetary contribution to
the preparation or submission of the brief.

2
CIPA’s educational activities include organizing
conferences, seminars and meetings on patent law,
frequently with the assistance of U.S. practitioners,
publishing a monthly journal featuring articles on patent
law and recent decisions, publishing books in-house on
patent law, publishing through Sweet and Maxwell the
CIPA Guide to the Patents Acts (now in its 8th Edition),
the European Patents Handbook, and the European
Patents Sourcefinder, and publishing other titles relating
to trademarks and designs.
The scope of patent-eligible subject matter in the
United States and its inconsistency with international
treaties and practice is of fundamental concern to CIPA
members and their clients. Patent protection is particularly
important for inventions in the life sciences, especially for
pharmaceutical, biotechnological, and medical testing
inventions where research, product development, and
commercial activities depend upon eligibility criteria that
are consistent and predictable. CIPA is concerned that this
Court’s decision in Mayo has been interpreted and applied
by the Federal Circuit, district courts, and the USPTO in
a way that is unnecessarily restrictive as to the scope of
patent-eligible subject matter in the life sciences, which
has placed an undue burden on patent applicants and
internationally discordant restrictions on long-established
and widely accepted eligibility criteria. The situation
affects many members of the UK (and international) public
having patent applications undergoing examination by the
USPTO. CIPA filed an amicus brief in this case at the

3
Federal Circuit 2 and in April 2016 filed an amicus brief
to this Court in support of the Petition for Certiorari in
Ariosa v. Sequenom3.
SUMMARY OF ARGUMENT
This case raises significant issues under both
international and U.S. domestic patent law. Internationally,
since 2012 the repeated denial by the U.S. Court of
Appeals for the Federal Circuit of eligibility for all
medical diagnostic patents that have come before it has
created a categorical exclusion contrary to Article 27 of
the Agreement on Trade-Related Aspects of Intellectual
Property Rights (TRIPS), diagnostic methods of the
present kind being held patentable in many countries
and, for example, under the PCT International Search
and Preliminary Examination Guidelines. Under U.S.
domestic law, the most representative claims at issue here
relate to subject matter falling unequivocally and not
merely through the draftsman’s art within three of the
four eligible categories of Section 101, namely composition
of matter, manufacture and process. The claimed subject
matter therefore exhibits unusually strong positive
statutory eligibility, which should not be denied by judicial
exception as a claim to a natural law without issues arising
concerning the balanced construction of Section 101 and
the doctrine of separation of powers.

2. Downloadable from https://cdn.patentlyo.com/media/2018/10/
ATHENA.AmicusCIPA.pdf.
3. Downloadable from https://www.scotusblog.com/wpcontent/uploads/2016/04/15-1182.amicus.final_.pdf.

4
ARGUMENT
I.

The Federal Circuit decision conf licts with
international treaties to which the United States
is a party, as well as established international
practice.

In their dissenting opinion concerning the petition
for rehearing en banc of the panel decision, Judge Moore
(joined by Judges O’Malley, Wallach, and Stoll), wrote that
the Federal Circuit has turned this Court’s decision in
Mayo Collaborative Servs. v. Prometheus Labs., Inc., 566
U.S. 66 (2012), into a per se rule that diagnostic methods
are ineligible under 35 U.S.C. § 101, citing eight successive
Federal Circuit decisions denying the eligibility of such
claims, including Ariosa Diagnostics, Inc. v. Sequenom,
Inc., 788 F.3d 1371 (Fed. Cir. 2015), cert. denied, 136 S.Ct.
2511 (2016). Although the same finding was not expressly
made in the opinions of the other judges, in view of the
consistency of approach adopted by the United States
courts there can be little doubt that the application of this
Court’s Mayo decision has had a practical effect equivalent
to such a per se rule.
As explained in our earlier brief (noted by Judge
Newman in her dissenting opinion in the original panel
decision), in its focus on judicial exception rather than
substantive eligibility the Federal Circuit decisions have
rendered ineligible many diagnostic method inventions
considered eligible under the Patent Cooperation Treaty
(PCT), the European Patent Convention (EPC), and the
laws of many other countries. Hence, the scope of patenteligible subject matter has become inconsistent with the
obligations of the United States under Article 27 and

5
Note 5 of the Agreement on Trade-Related Aspects of
Intellectual Property Rights (TRIPS) administered by
the World Trade Organization (WTO).
Article 27.1 of TRIPS, entitled “Patentable Subject
Matter,” provides a complete code for patent eligibility
that WTO member countries, including the United
States, have agreed to respect. It states that “patents
shall be available for any inventions, whether products
or processes, in all fields of technology, provided that
they are new, involve an inventive step, and are capable
of industrial application.” It further provides that patent
rights should be enjoyed without discrimination as to
the field of technology. In negotiating TRIPS, care was
taken to ensure consistency with U.S. domestic law.
Thus, Article 27 is to be read together with Note 5, which
provides that the term “capable of industrial application”
may be deemed to be synonymous with the term “useful”.
Exclusions from patentability are covered by Articles
27.2 and 27.3 of TRIPS. They include the protection of
“ordre public or morality, including to protect human,
animal or plant life or health or to avoid serious prejudice
to the environment.” Other exclusions also exist, but there
is no provision for the exclusion of laws of nature, natural
products, or processes involving natural products.
Patent-eligible treatment and diagnostic methods are
discussed in the Patent Cooperation Treaty International
Search and Preliminary Examination Guidelines
(“Guidelines”), published by the World Intellectual
Property Organization and last revised in June 2019. In
the Guidelines, Chapter 9 is entitled: “Exclusions from,
and Limitations of, International Search and International

6
Preliminary Examination.” Paragraph 9.10 cites PCT
Rules 39.1(iv) and 67.1(iv), which provide that international
search and international preliminary examination are
excluded for diagnostic methods but only when practiced
on the human or animal body. The Guidelines explain
that the treatment of blood for storage in a blood bank or
diagnostic testing of blood samples is not excluded.
The patent-in-suit here, U.S. Patent No. 7,267,820
(“the ‘820 patent”), issued to inventors Vincent and Hoch,
concerns a diagnostic method carried out on serum or
plasma from patients and unequivocally complies with
the Guidelines. Subject-matter eligibility for the same
invention during its international search and examination
was therefore never disputed. See International Publication
WO 01/96601, subsequently granted in Europe as patent
EP-B-1327147, and granted in Canada as patent 2,455,271.
Likewise, the patent-in-suit in Ariosa v. Sequenom
concerned a blood test that was deemed subject-matter
eligible under these Guidelines.
There exists an urgent need for clarification and
reconsideration of the scope of the Mayo decision, as
evidenced by the views of Judges Moore, O’Malley,
Wallach, and Stoll of the per se exclusion rule, and its
conflict with recent foreign court decisions that consider
such subject matter to be patent-eligible. For example, the
Federal Court of Australia in Sequenom, Inc. v. Ariosa
Diagnostics, Inc. [2019] FCA 1011, held that Sequenom’s
patent for methods of prenatal testing was both valid and
infringed. The decision confirms that diagnostic methods
involving the practical application of a natural phenomenon
remain patent-eligible in Australia. The court reasoned
that the claims of Sequenom’s patent were not directed to a

7
natural phenomenon per se. Rather, the court determined
that the claims defined the practical application of a
natural phenomenon, namely, the presence of cffDNA
in maternal blood. See id. at [485]. The opinion clearly
answered the question of whether the claims resulted in
something “made” by human action, finding that cffDNA
could not be detected in maternal blood without human
action. The discordant outcome in the corresponding case
in the United States can be attributed to several factors,
including the effective per se rule discussed above and the
inappropriate claim construction that dissected the claims
into their constituent parts, rather than considering the
claim in its entirety, and that is also contrary to Australian
practice. See id. at [522]. The Australian approach to
determining patent-eligible subject matter is reflected in
Judge Linn’s concurring opinion in the Federal Circuit’s
panel decision in the corresponding U.S. case. See Ariosa,
788 F.3d at 1380.
Reconsideration of the ambit of the ratio decidendi
in Mayo is needed to bring it within the canon of
construction suggested by Justice Marshall in Murray
v. Schooner Charming Betsy: Section 101 “ought never
to be construed to violate the law of nations if any other
possible construction remains.” 6 U.S. 64, 188 (1804).
This is especially compelling in relation to TRIPS, an
international agreement for which the United States was
a principal advocate. Therefore, the Court should seize
upon this opportunity to explain that the ratio decidendi
in Mayo is less broad than how it has been applied, and
return the state of U.S. law regarding subject-matter
eligibility closer to its position in 1995 when the TRIPS
agreement came into effect.

8
II. Clarification is needed as to the relationship
between the positive eligibility provisions of 35
U.S.C. § 101 and the judicial exceptions.
The urgency and impor tance of this need is
demonstrated by substantial judicial inattention to the
positive provisions of Section 101 in both the Federal
Circuit’s panel decision in this case and in the divided
decision refusing rehearing en banc, in which all eleven
judges unanimously conceded that the claimed subject
matter ought to qualify as patent-eligible, but the sixjudge majority considered itself bound by the sweeping
scope of this Court’s decision in Mayo. Indeed, only Judge
Newman considered positive eligibility; the panel majority
(Judges Lourie and Stoll) expressly declined to do so
despite their knowledge that the claimed subject matter
involved the binding of molecules during a sequence of
chemical manipulations. See Athena Diagnostics, Inc. v.
Mayo Collaborative Servs., LLC, 915 F.3d 743, 750 n.3
(Fed. Cir. 2019). At least since Mayo the Federal Circuit
has in its eligibility decisions focused exclusively on
judicial exception and given no attention to the substantive
provisions of the statute and its jurisprudence.
We submit that the over extension of the suggestion
in Mayo, derived from earlier decisions of this Court,
that laws of nature should be treated as “a familiar part
of the prior art” has created much of the subsequent
difficulty in determining the type of diagnostic claim that
is eligible for patenting. The view is inconsistent with this
Court’s holding in Diamond v. Diehr, 450 U.S. 175 (1981),
in which the Arrhenius equation, though not patentable
in isolation, was held to contribute to a patent-eligible
method. In that case, Justice Rehnquist quoted Justice
Stone in Mackay Radio & Telegraph Co. v. Radio Corp. of

9
America, 306 U.S. 86, 94 (1939): “While a scientific truth,
or the mathematical expression of it, is not a patentable
invention, a novel and useful structure created with the
aid of knowledge of scientific truth may be.”
To illustrate the problem, and as discussed in more
detail in the section below, the law of nature forming the
basis of the ‘820 patent was the relationship between
the presence of autoantibodies to the protein muscle
specific tyrosine kinase (MuSK) in bodily fluid and
neurotransmission or developmental disorders. While
that discovery is not, in itself, patent-eligible, it was not
part of the prior art, as it was unknown to science until
the publication by Professors Vincent and Hoch and
described in the ‘820 patent. Similarly, the formation
of an antibody/ 125I-labelled MuSK epitope was not “a
familiar part of the prior art” or “well-understood,
routine, conventional activity previously engaged in by
researchers in the field,” and neither was the further
step of precipitating the antibody/ 125I-labelled MuSK/
Sheep IgG triple complex. Instead, these manipulations
were new to science, involving new molecules and
forming part of a novel and useful diagnostic method.
Although immunoassay techniques such as ELISA and
radioimmunoassay were known, as disclosed in the ‘820
patent, the individual steps employed were novel.
III. The fact pattern in this case is consistent with
substantive eligibility, and provides an opportunity
for restoration of balance.
Athena Diagnostics is the exclusive licensee of the ‘820
patent, directed to methods for diagnosing neurological
disorders by detecting autoantibodies to a protein called
muscle-specific tyrosine kinase (MuSK). Athena, 915 F.3d

10
at 746. In particular, the methods are useful for diagnosing
myasthenia gravis (MG), which is a neurological disorder in
which patients experience muscle weakness and symptoms
including drooping eyelids, double vision, and slurred speech.
The facts of this case provide an opportunity for
this Court to clarify that the analysis of subject-matter
eligibility under Section 101 should focus on the question
of what is eligible under the language of the statute, rather
than what may be ineligible under a judicial exception.
The claims at issue in this case touch on three of the four
types of patent-eligible inventions recited in the statute.
Dependent claim 9 of the ‘820 patent was the focus of the
Federal Circuit’s panel majority. For clarity, that dependent
claim, when redrafted to include all the limitations of the
claims from which it depends, would recite:
A method for diagnosing neurotransmission
or developmental disorders related to muscle
specific tyrosine kinase (MuSK) in a mammal
comprising the step of detecting in a bodily fluid of
said mammal autoantibodies to an epitope of muscle
specific tyrosine kinase (MuSK), comprising
contacting MuSK or an epitope or antigenic
determinant thereof having a suitable label
thereon, w ith said bodily f luid, wherein
said label is a radioactive label and is 125 I,
immunoprecipitating any antibody/MuSK
complex or antibody/MuSK epitope or antigenic
determinant complex from said bodily fluid
and monitoring for said label on any of said
antibody/MuSK complex or antibody/MuSK
epitope or antigen determinant complex,

11
wherein the presence of said label is indicative
of said mammal is suffer ing from said
neurotransmission or developmental disorder
related to muscle specific tyrosine kinase (MuSK).
The above method can be depicted with reference to
the following diagram, which identifies the two molecules
that occur in nature above the top-most horizontal line.
All other molecules and products that are created by
human intervention in a laboratory procedure are below
the horizontal line:

12
As illustrated, three molecular structures new to
science are created by the following three chemical
reactions:
(1) MuSK + Na125I → 125I-MuSK;
( 2) A u t o a n t i b o d y + 125I - M u S K →
Autoantibody/125I-MuSK; and
(3) Autoantibody/125I-MuSK + Sheep IgG →
Autoantibody/125I-MuSK/Sheep IgG.
The panel majority correctly identified the relevant
natural law as the correlation between the presence of
naturally-occurring MuSK autoantibodies in bodily fluid
and MuSK-related neurological diseases such as MG.
See Athena, 915 F.3d at 750. However, the panel majority
ought to have identified the focus of the claim in terms of
the procedural steps required to be carried out and new
materials produced.
While the three novel structures were discussed at the
district court and raised again during the Federal Circuit
appeal, the panel majority dismissed their relevance to the
question of subject-matter eligibility, stating:
We note that the district court held that
the “focus of the claims” was the binding of
MuSK to MuSK antibodies in bodily fluid.
Decision, 275 F. Supp. 3d at 310. Our cases
have not described a claim to the binding of
two molecules during a sequence of chemical
manipulations (here, after MuSK labelling
and before immunoprecipitation) as a claim
to a natural law, even if such binding occurs
according to natural laws. We need not resolve

13
that issue here, as we agree with Mayo’s
identification of the natural law.
Athena, 915 F.3d at 750 n.10.
The panel decision correctly acknowledged that
the claimed method starts with a sample of bodily
fluid, implicitly in a laboratory reaction tube. The novel
125
I-MuSK molecule is added to the sample in the reaction
tube. The ensuing reaction, which forms a labelled
complex, is not a natural event occurring in vivo, but is
brought about by the hand of man within the reaction tube.
Although immunoprecipitation was a known technique,
it had not been reported in relation to MuSK prior to
the ‘820 patent. The resulting molecular structure,
consisting of IgG anti-MuSK-autoantibody/125I-MuSK/
sheep IgG secondary antibody, which is recovered as a
pellet by centrifugation and washing, is prima facie a
novel, non-natural complex because its three chemically
linked constituents, allowing the claimed method to be
performed, had not been reported as having been brought
together prior to the invention. Further, these elements
of the claim are both useful, by virtue of radioactive
labelling, and subject-matter eligible as a “composition
of matter” under Section 101. Nothing in this claim can
be considered a mere product of skilled claim drafting;
rather, the claim utilizes several non-naturally occurring
products of human ingenuity having a distinctive name,
character, and use. Any contrary holding would conflict
with Supreme Court authority. See, e.g., Hartranft v.
Wiegmann, 121 U.S. 609, 615 (1887), quoted in Diamond
v. Chakrabarty, 447 U.S. 303, 309 (1980) and Ass’n for
Molecular Pathology v. Myriad Genetics, Inc., 569 U.S.

14
576 (2013). Because the claim recites novel molecular
structures such as 125I-MuSK and the triple antibody,
which are also patent-eligible compositions of matter, a
method such as that recited in claim 9 that employs such
molecules as part of an ordered combination of steps
cannot logically be treated as ineligible subject matter.
Moreover, detection of the radioactive label recited in the
claims requires specific laboratory procedures involving
sophisticated electronic apparatus.
Judge Chen, concurring in the denial of en banc
review of this case, highlighted the emergent problem in
the analytical framework that discounts the recitation of
patent-eligible steps or species and instead focuses solely
on an underlying law of nature to render the result an
ineligible combination:
W hen it comes to apply ing the judicial
exceptions, it bears noting that the Mayo
analytical approach is considerably harder to
apply consistently than the Diehr framework,
and more aggressive in its reach. Consider the
claim in Mayo. If that claim had recited just
the single step of administering a synthetic
drug to a patient, that single-step claim would
be patent-eligible, but lack novelty under §
102. And if that claim added a second step for
determining the subsequent level of a nonnaturally occurring metabolite in a patient, that
claim also would pass muster under § 101, but
lack novelty. But when the claim further recites
a relationship between a metabolite level and
its efficacy in a patient, that claim suddenly
would be invalid under § 101 for violating the

15
law of nature exception. In other words, steps
1 and 2 now get pushed aside and declared
insignificant, and the last step is designated
as the “focus” of the claim, i.e., the heart of
the invention. The notion that adding claim
language can convert an otherwise patenteligible claim into a patent-ineligible claim is
counterintuitive and a very difficult thing to
explain to 8,000 patent examiners.
Athena Diagnostics, Inc. v. Mayo Collaborative Servs.,
LLC, 927 F.3d 1333, 1348 (Fed. Cir. 2019) (Chen, J.,
concurring).
The problem shines brightly in this case because of
the fundamental differences between Athena’s method
and the method at issue in Mayo. In Mayo, the claim was
directed to analysed levels of a metabolite formed in vivo
and that were applied to define upper and lower levels
of a therapeutic window for thiopurine drugs, whereas
Athena’s claims include new materials formed in vitro as
part of a multi-step laboratory test procedure providing
new benefits for an identifiable (and previously nondiagnosable) group of patients suffering from myasthenia
gravis. The claimed method in Mayo is more easily
alleged to lack novelty in either its starting material or
the chemical entities recited in the claim, and left to rely
only on the novelty of the ineligible information relating
to the newly defined therapeutic window.
It is apparent that the alleged conflict between positive
statutory eligibility as composition of matter features
and judicial exception as a claim to a natural law was a
significant and highly relevant legal issue that cried out

16
for resolution, not least because it involved the doctrine
of separation of powers. The need to interpret a statute
as written and the inappropriateness of rewriting it were
recently emphasized by Justice Kavanaugh in Henry
Schein, Inc. v. Archer & White Sales, Inc., 586 U.S.
___, 139 S.Ct. 524 (2019). But the need to take positive
provisions into account can be traced to older authority.
For example, in Bilski v. Kappos, Justice Kennedy
explained: “Concerns about attempts to call any form of
human activity a ‘process’ can be met by making sure
the claim meets the requirements of § 101.” 561 U.S. 593,
603 (2010).
In addition, the overall claimed method falls as a
matter of substance and not mere outward appearance
within the Section 101 category of “process,” the watersoluble autoantibody starting material being transformed
or reduced to the water-insoluble three-component
complex, which is a different state or thing.
The majority in Diehr summarized its conclusion
that the claimed rubber-curing method involving the
Arrhenius equation was patent-eligible in the following
terms:
We view respondents’ claims as nothing more
than a process for molding rubber products,
and not as an attempt to patent a mathematical
formula. We recognize, of course, that, when
a claim recites a mathematical formula (or
scientific principle or phenomenon of nature), an
inquiry must be made into whether the claim is
seeking patent protection for that formula in the
abstract . . . . On the other hand, when a claim

17
containing a mathematical formula implements
or applies that formula in a structure or
process which, when considered as a whole, is
performing a function which the patent laws
were designed to protect (e.g., transforming
or reducing an article to a different state or
thing), then the claim satisfies the requirements
of § 101. Because we do not view respondents’
claims as an attempt to patent a mathematical
formula, but rather to be drawn to an industrial
process for the molding of rubber products, we
affirm the judgment of the Court of Customs
and Patent Appeals.
450 U.S. at 192-3.
No valid distinction can be discerned between the
rubber molding process of Diehr and the diagnostic
method of Athena . The claimed process equally
transforms the initial autoantibody into a different state
or thing. The method of claim 9 cannot be regarded as
an attempt to patent the correlation that was held to be a
natural law, especially as it covers only a preferred one of
two alternative detection methods disclosed in the patent.
The diagnostic method is equivalent to “an industrial
process” because it is commercialized on a mass-scale by
medical diagnostic companies.

18
CONCLUSION
For the reasons stated above, the petition for a writ
of certiorari should be granted.
			

Respectfully submitted,
Michael Stanley Tomsa
Counsel of Record
McA ndrews, Held & Malloy, Ltd.
500 West Madison Street, Suite 3400
Chicago, Illinois 60661
(312) 775-8000
mtomsa@mcandrews-ip.com
Counsel for Amicus Curiae

October 31, 2019

